                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS


                             CLOSEOUT MEMORANDUM

Case Number: A04100061
                                                                           11         Page 1of 1


    I n October 2004, a Program Manager (PM) contacted us with questions about a
    proposal1 he received. The PI had not included letters of support in a way that was
    accessible to reviewers, and one of the reviewers asked the PM about them. The
    reviewer expressed a concern to the PM about whether the PI was accurately
    representing his collaborations. Specifically, the dates on the letters were
     substantially earlier than the submission date of the proposal, and one of the letters
    indicated it was for a different research project, giving the appearance the PI had
    inappropriately used letters of support for a different project in this proposal. This
    was potentially significant because the PI was relying on one of the collaborators for
     material to use i n his research. Following NSF's policy, the PM appropriately
                                         i e w e ~ ' s &G; -- - - --- -- - --- -
    ~ o r ~ ~ - a - ] ~ d e d - t ~ e v-a4leg&kfm-to                             - - ---                -.



    The PI told us his letters of support accurately reflected his collaborations. He
    explained he had previously submitted a proposal to another Federal agency and,
    later that same year, to NSF.2 That proposal was declined. The PI revised it, re-
    titled it, and resubmitted it to NSF with the previous letters of support. The PI
    provided additional support that the material the collaborator provided was indeed
    accessible to him for research on this project. Therefore, we conclude there is no
    support for the allegation; accordingly, this case is closed.




         (redacted).
       2 He appropriately disclosed on the Cover Sheet he had submitted this same proposal to another
    Federal agency.
